No. 19-439

 

 

IN THE
Supreme Court of the Anited States

CTIA — THE WIRELESS ASSOCIATION®,

Petitioner,
v.

THE CITY OF BERKELEY, CALIFORNIA, AND

CHRISTINE DANIEL, CITY MANAGER OF
BERKELEY, CALIFORNIA, IN HER OFFICIAL CAPACITY,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

7,622 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 1, 2019.

 

Wilson-Epes Printing Co., Inc.
